                                                                                  PricewaterhouseCoopers LLP
                                                                                  1751 Pinnacle Drive
                                                                                  McLean, VA 2212
                                                                                  Telephone: (703) 918-3000
                                                                                  Fax: (703) 918-3157
                          Report of Independent Accountants


To the Inspector General

Pension Benefit Guaranty Corporation 


We have audited the accompanying statements of financial condition as of September 

30, 2000 and 1999, of the Single-Employer and Multiemployer Program Funds 

administered by the Pension Benefit Guaranty Corporation (PBGC) and the related

statements of operations and changes in net position and statements of cash flows for 

the years then ended. These financial statements are the responsibility of PBGC's 

management. Our responsibility is to express an opinion on these financial statements 

based on our audits.


We conducted our audits in accordance with auditing standards generally accepted in 

the United States of America and Government Auditing Standards, issued by the

Comptroller General of the United States. Those standards require that we plan and 

perform the audit to obtain reasonable assurance about whether the financial 

statements are free of material misstatement. An audit includes examining, on a test

basis, evidence supporting the amounts and disclosures in the financial statements.

An audit also includes assessing the accounting principles used and significant 

estimates made by management, as well as evaluating the overall financial statement

presentation. We believe that our audits provide a reasonable basis for our opinion.


In our opinion, the financial statements referred to above present fairly, in all material 

respects, the financial position of the Single-Employer and Multiemployer Program 

Funds administered by PBGC as of September 30, 2000 and 1999, and the results of

their operations and cash flows for the years then ended in conformity with accounting 

principles generally accepted in the United States of America.


By law, PBGC's Single-Employer Program Fund (the Fund) must be self-sustaining and 

as such, its premiums must be sufficient to cover both its short and long-term 

obligations. The Fund is able to meet its short-term benefit obligations and internal 

analyses indicate that the combined effect of future premium revenue and reduced

underfunding of Single-Employer plans may allow the Fund to meet its future

obligations as well. While the Fund’s statement of financial condition reports a net 

position (assets in excess of liabilities) of $9.7 billion at September 30, 2000, losses that 

are “reasonably possible” as a result of unfunded vested benefits are estimated to be $5 

billion, as discussed in Note 7. To the extent contingent losses currently classified as 

“reasonably possible” become more likely, such as from deteriorating economic 

conditions or from insolvency of a large plan sponsor, the Fund’s net position could be

depleted.


The Actuarial Valuation and other supplemental information contain a wide range of 

data, some of which are not directly related to the principal financial statements. We

do not express an overall opinion on this 


                                                                                        2001-8/23149-1 

Report of Independent Accountants
Page 2

information. However, we compared this information for consistency with the principal
financial statements and discussed the methods of measurement and presentation with
PBGC officials. Based on this limited work, we found no material inconsistencies with
the principal financial statements.

In addition, in accordance with Government Auditing Standards, we have issued reports
dated January 19, 2001, on PBGC management’s assertion about the effectiveness of
its internal control and on its compliance with laws and regulations. These reports are
integral parts of an audit conducted in accordance with Government Auditing
Standards, and, in considering the results of the audit, these reports should be read
along with the Report of Independent Accountants on the financial statements.




January 19, 2001
Arlington, Virginia




                                                                                 2001-8/23149-1

